        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Accounting and Reporting for the
American Recovery and
Reinvestment Act by the Department
of Energy's Funding Recipients




OAS-RA-10-06                          April 2010
                                   Department of Energy
                                     Washington, DC 20585
                                            April 1, 2010


MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                   INFORMATION: Audit Report on "Accounting and Reporting for the
                           American Recovery and Reinvestment Act by the Department of
                           Energy's Funding Recipients"

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was established to
jumpstart the U.S. economy, create or save millions of jobs, and invest in the Nation's energy
future. The Department of Energy received approximately $37 billion through the Recovery Act
to support a variety of science, energy and environmental initiatives. The Office of Management
and Budget (OMB) issued guidance for carrying out stimulus-related activities which requires,
among other things, that recipients ensure funds provided by the Recovery Act are clearly
distinguishable from non-Recovery Act funds in all reporting systems and that recipients' actions
are transparent to the public. To meet these requirements, the Department's recipients (prime
contractors, grantees and other financial assistance awardees) must clearly and accurately track
and report on 18 separate data elements. In addition, the Department was to develop and
implement a process to ensure that recipient information reported to the public was free from
material omissions and significant reporting errors.

Our recent report on the Department of Energy's Quality Assurance Process for Prime
Recipients' Reporting for the American Recovery and Reinvestment Act of 2009 (OAS-RA-10-
01, October 2009) noted that the Department had developed a quality assurance process to
facilitate the quarterly reviews of recipient data and planned to test it during the first quarterly
reporting cycle. To determine whether the Department's quality assurance process over data
reported by all recipients was effective, we examined information reported by recipients of
Departmental funding as of September 30, 2009. We also sought to determine whether the
Department's prime contractors were prepared to track and report on Recovery Act activities.

RESULTS OF AUDIT

The Department had taken a number of actions designed to ensure the accuracy and transparency
of reported Recovery Act results. For instance, the Department developed and implemented a
data quality assurance process to examine select data elements (4 of 18) for all recipients of
Recovery Act funds. This process identified potential anomalies with information reported by
1,113 of 2,038, or 55 percent of recipients. We view the Department's data quality assurance
efforts as both timely and significant. As noted by our audit testing, however, opportunities exist
to strengthen the process, thus reducing the risk of material errors and improving the
transparency of publicly reported Recovery Act information. In particular:

       Site officials did not always ensure that anomalies, once identified during the quality
       assurance process, were actually resolved. For example, the Department's process
                                                 2

      identified that about 740 of the approximately 10,000 jobs reported in the first quarter of
      Fiscal Year 2010 as created/retained were for projects reported as having no funds spent.
      Although these problems were referred to site officials for follow-up and/or correction, the
      information was never actually changed;

      The Department did not always utilize the correct basis when evaluating the accuracy of
      "funds provided" data submitted by grant recipients. For example, in its analysis process,
      the Department used data reflecting "funds obligated" rather than the correct amount of
      "total grant awards". This generated a number of potential false positives; and,

      Duplicate reports by certain recipients, resulting in overstatements of as much as $137
      million of the more than $18 billion obligated, were not corrected.

We observed that the Department had taken prompt action to ensure that its prime facility
management contractors could properly report Recovery Act information. Notably, the seven
contractors in this category included in our review had modified their accounting systems, as
necessary, to ensure that they could accurately track and report on Recovery Act activities. The
systems at each of these entities had been restructured so that they: (i) could separate Recovery
Act and non-Recovery Act funds; and, (ii) had adequate processing capacity to handle the
projected increase in transactions.

We recognize the challenge of balancing the need to reduce the risk that material errors or
misstatements exist in reported Recovery Act information and the cost of quickly reviewing
large amounts of data and resolving resulting anomalies. As such, we found the Department's
decision to limit its reviews to the four elements that it considered to be critical (award amount,
invoiced amount, jobs created/retained, and project status) to be reasonable. We concluded,
however, that as demonstrated by our test results, other elements or dependent relationships
should not be completely excluded from review. Even in cases where the Department views data
elements as "non-critical," introducing random comparisons on a rotating or cyclical basis could
enhance review efforts and increase the likelihood that Recovery Act information is free of
material errors.

Beyond its initial development and implementation of its quality assurance process, the
Department had taken steps to improve its ability to ensure that Recovery Act information was
both accurate and transparent to the public. Specifically, officials changed the quality assurance
plan based on initial data reviews. Department officials also informed us that they are in the
process of updating their quality assurance process to meet new OMB requirements. For
example, recent guidance directed agencies to focus on certain data elements, such as award
number and recipient name, during their quality assurance reviews. In addition, subsequent to
our review, the Department added two more data elements and comparisons to its quarterly
assurance process, including an analysis of costs/expenditures and a comparison of the recipient
reported project status to the Department's data contained in its financial system.

OTHER MATTERS

While not directly related to data quality, during the course of our audit work we observed that
none of the seven prime contractors reported the number of subcontractor jobs created or
                                                   3

retained in conjunction with funds provided under the Recovery Act. To be clear, OMB did not
require such data to be reported. Interestingly, as reported externally, we found that the number
of jobs created by subcontractors was almost double that of jobs created by prime contractors. At
the seven prime contractors reviewed, over 1,100 prime contractor jobs were reported as being
created or retained. However, data gathered by prime contractors indicated that more than 2,000
subcontractor jobs were also created or retained over the same period. The following chart
represents the variance between prime contractor and subcontractor jobs as of September 30,
2009.

                                                                  Prime
                                                               Contractor Subcontractor
                                                              Jobs Created Jobs Created
                Contractor                        Location*    or Retained  or Retained            Total
 CH2M Hill Plateau Remediation Company             Hanford         621         1,404               2,025
 Washington Closure Hanford Company                Hanford          36           39                  75
 Washington River Protection Solutions             Hanford         200           87                 287
 Battelle Memorial Institute                       PNNL             27          114                 141
 UT-Battelle                                       ORNL             41          161                 202
 Bechtel Jacobs Company                             ETTP            93            7                 100
 B&W Y-12                                           Y-12           129          202                 331
                                                                  1,147        2,014               3,161

* Locations more fully described in Appendix 1.

We do not question the basis or rationale leading to the decision to exclude subcontractor job
creation or retention from reporting. However, as a practical matter, it tends to alter the visibility
of jobs creation related to execution of the Recovery Act in the Department of Energy. The
Department's core structure for many of its activities relies heavily on prime and subcontractor
relationships.

MANAGEMENT REACTION

Management concurred with each of the report's recommendations and indicated that it had taken
action to address the recommendations. Management's comments are included in their entirety
in Appendix 3.

Attachment

cc: Deputy Secretary
    Under Secretary of Energy
    Under Secretary for Science
    Administrator, National Nuclear Security Administration
    Chief Financial Officer
    Chief of Staff
ACCOUNTING AND REPORTING FOR THE AMERICAN
RECOVERY AND REINVESTMENT ACT BY THE DEPARTMENT
OF ENERGY'S FUNDING RECIPIENTS

TABLE OF
CONTENTS

Accounting and Reporting for the American Recovery and Reinvestment Act

Details of Finding ................................................................................................................1

Recommendations and Comments .......................................................................................5


Appendices

1.    Objective, Scope, and Methodology ............................................................................6

2.    Prior Reports.................................................................................................................8

3.    Management and Auditor Comments...........................................................................9
ACCOUNTING AND REPORTING FOR THE AMERICAN RECOVERY
AND REINVESTMENT ACT

The Department's        As previously noted in our report on the Department of
Quality Assurance       Energy's Quality Assurance Process for Prime Recipients'
Process and Prime       Reporting for the American Recovery and Reinvestment Act
Contractor Accounting   of 2009 (OAS-RA-10-01, October 2009), the Department of
Systems                 Energy (Department) had developed a quality assurance
                        process to identify material omissions and significant reporting
                        errors. The Department applied its quality assurance process to
                        the first round of American Recovery and Reinvestment Act of
                        2009 (Recovery Act) reporting and identified a significant
                        number of anomalies. However, our analysis of the same
                        September 30, 2009, data reported by all recipients, including
                        certain prime contractors, identified anomalies where recipients
                        may have reported erroneous information that resulted in
                        potentially inaccurate reporting to FederalReporting.gov and
                        the ultimate publication of such information on Recovery.gov.
                        Based on our testing, we concluded that the Department's
                        quality assurance process could be further strengthened to help
                        ensure that information reported by recipients was not
                        materially inaccurate. Our review also disclosed that seven of
                        the Department's prime contractors that received Recovery Act
                        funding for various projects and initiatives appeared to have
                        adequate information systems and processes in place for
                        tracking and reporting on Recovery Act activities.

                                  Recipient Reporting and Quality Assurance

                        The Department's quality assurance process was designed to
                        analyze information provided by all of the Department's
                        Recovery Act recipients and focused on 4 of 18 reporting
                        elements required by the Office of Management and Budget
                        (OMB): award amount, invoiced amount, jobs
                        created/retained, and project status. These recipient-reported
                        data elements were compared to information maintained in the
                        Department's financial systems, such as the Standard
                        Accounting and Reporting System. Department officials noted
                        that they focused their attention on these four elements because
                        they believed that they were the highest risk areas and testing
                        the data would detect material omissions and significant
                        reporting errors. In fact, the Department's quality assurance
                        process identified potential anomalies with 1,113 of 2,038 (55
                        percent) recipients reviewed. The potential errors included 308
                        recipients that did not report approximately $323 million of
                        Recovery Act funding to FederalReporting.gov as of
                        September 30, 2009. While the Department's quality assurance
                        process identified numerous anomalies, we noted that some

___________________________________________________________________
Page 1                                                Details of Finding
                       were never corrected and additional potential reporting errors
                       existed. Specifically, during our review of recipient reported
                       data, we found:

                          Site officials did not always ensure that needed changes
                          identified during the quality assurance process were made.
                          OMB guidance requires the Department to evaluate
                          recipients' data submissions and direct changes as
                          necessary. In addition, a Department official stated that the
                          site officials were responsible for a follow-through review.
                          Although discrepancies were identified during the quality
                          assurance process, we found recipients for 102 projects
                          reported to FederalReporting.gov that 744 jobs had been
                          created or retained even though no funds had been spent on
                          these projects;

                          The Department did not always utilize the correct amount
                          when evaluating the accuracy of data reported by grant
                          recipients to FederalReporting.gov. Specifically, at the
                          time of our review, the Department utilized the amount of
                          funding provided to the recipients to date rather than the
                          total amount of the award reported by the recipients. For
                          example, an Office of Fossil Energy grantee reported that it
                          was awarded approximately $308 million for a project.
                          However, in its quality assurance analysis, the Department
                          incorrectly compared the award amount on
                          FederalReporting.gov to the amount of funding provided to
                          date, as indicated in the Department's financial system, and
                          flagged that as a potential error of approximately $258
                          million. Errors such as this resulted in site officials
                          identifying and addressing more discrepancies than
                          necessary, reducing the efficiency of the quality assurance
                          process;

                          13 recipients reported in duplicate to FederalReporting.gov,
                          potentially overstating the amount of Recovery Act awards
                          by $137 million. For instance, we noted that one State
                          Energy Program grantee reported duplicate information,
                          resulting in an overstatement of Recovery Act spending of
                          more than $25 million. Although inaccuracies such as
                          these were detected during the quality assurance process,
                          the duplicate awards were not removed by the recipients
                          from FederalReporting.gov; and,




___________________________________________________________________
Page 2                                                Details of Finding
                          The quality assurance process also did not detect anomalies
                          when the recipients reported no award amount.
                          Specifically, we found several instances where the
                          recipients were awarded Recovery Act funding, but noted
                          in their data submission that there was no award amount.
                          After we brought this matter to its attention, the
                          Department told us that it had evaluated the issue and
                          determined that a programming error caused the problem
                          we discovered. Responsible officials indicated that they
                          would take action to address the issue.

                            Prime Contractor Accounting and Reporting Systems

                       To support agency efforts, OMB issued guidance for carrying
                       out activities enacted in the Recovery Act which required,
                       among other things, that agencies ensure all funds provided in
                       the Recovery Act were distinguishable from non-Recovery Act
                       funds in their financial and business reporting systems. To
                       meet these requirements, the Department's prime contractors
                       were required to clearly and accurately report Recovery Act
                       data in a timely manner. During our review, we conducted test
                       work at seven of the Department's prime contractors that
                       received Recovery Act funding for various projects and
                       initiatives to determine whether contractor systems were
                       capable of meeting these new reporting challenges.

                       Based on our evaluations, we concluded that the contractors'
                       information systems we examined appeared to be adequate for
                       tracking and reporting Recovery Act activities. Specifically,
                       all seven of the prime contractors reviewed had existing
                       information systems and processes in place that had been
                       modified to handle and process the additional Recovery Act
                       transactions. For example, officials at one national laboratory
                       noted that their financial system was easily modified and
                       allowed for projects to be allocated funding from multiple
                       sources, including Recovery Act and non-Recovery Act
                       funding. Similar changes were made to systems at the other
                       sites reviewed. We also found that systems at each of the sites
                       reviewed contained adequate processing capacity to handle the
                       additional transactions resulting from Recovery Act activities.

Quality Assurance      The Department had taken a risk-based approach when
Process and            implementing its quality assurance process. This approach was
Training               designed to analyze data reported by all recipients in an
                       expedited manner. However, we noted that the quality
                       assurance process did not focus on all relevant recipient

___________________________________________________________________
Page 3                                                Details of Finding
                       information. In addition, officials responsible for carrying out
                       the quality assurance process were not always trained in how to
                       address potential recipient errors.

                       The quality assurance process utilized by the Department
                       detected more than 1,100 anomalies during the initial reporting
                       cycle using an approach that was designed to identify the most
                       likely errors and material omissions. During its first quarterly
                       quality assurance review, the Department analyzed four data
                       elements reported by recipients: award amount, invoiced
                       amount, jobs created/retained, and project status. Officials
                       believed that reviewing these particular elements would detect
                       significant errors and material omissions in recipient reported
                       data. While we agree that the four elements evaluated were
                       critical, other data fields such as recipient name and
                       congressional district could also assist the public in its efforts
                       to determine the economic impact – jobs created/retained and
                       funding provided – to its geographical region. Furthermore,
                       enhancements to the Department's quality assurance process,
                       including reviews of various elements through random
                       comparison on a rotating basis, may assist the Department in
                       its efforts to identify and remediate issues similar to those
                       noted in our report.

                       The Department developed a training program for officials
                       responsible for reviewing recipient data submissions that
                       included detailed steps and procedures for cognizant officials
                       to follow when reviewing recipient quarterly data for
                       significant reporting errors and material omissions.
                       Department officials indicated that they had conducted training
                       at six locations; however, officials at a number of additional
                       sites still needed to receive training.

Transparency and       The Department placed a great deal of emphasis on its initial
Accuracy of            quality assurance process. And, arguably, it was successful in
Recipient Reported     that it identified an anomaly rate of nearly 50 percent. Further,
Data                   the Department had initiated changes to the quality assurance
                       plan based on initial data reviews. However, our findings
                       indicate that additional refinements to the quality assurance
                       process could help to ensure that Recovery Act information is
                       free of material errors, transparent, and ready for public
                       consumption. Of greatest importance, such data should
                       accurately reflect whether the Department's Recovery Act
                       efforts are ultimately successful, especially in terms of job



___________________________________________________________________
Page 4                                                Details of Finding
                     creation and economic stimulation. This process could be
                     enhanced by ensuring that all officials charged with resolving
                     reporting errors are adequately trained, providing additional
                     assurance that information ultimately published on
                     Recovery.gov is not materially misstated.

RECOMMENDATIONS      To help enhance the effectiveness of the Recovery Act data
                     quality assurance process, we recommend that the Chief
                     Financial Officer work with program officials to:

                        1. Adjust the quality assurance process, as necessary, to
                           include adding comparisons of other data elements to
                           increase the likelihood that material omissions and
                           significant reporting errors are detected; and,

                        2. Ensure that all officials with oversight responsibility for
                           Recovery Act recipient reporting are adequately
                           trained.

MANAGEMENT           Management concurred with the recommendations made in the
REACTION             report and indicated that action had been taken or was currently
                     underway to address many of the issues identified during our
                     review. In particular, management commented that it recently
                     made enhancements to the quality assurance process to
                     increase the likelihood that material omissions and significant
                     reporting errors are detected. In addition, management noted
                     that it was providing additional training on the Department's
                     quality assurance process to agency reviewers in the field.
                     Management's comments are included in their entirety in
                     Appendix 3.

AUDITOR              Management's comments are responsive to our
COMMENTS             recommendations.




___________________________________________________________________
Page 5                                  Recommendations and Comments
Appendix 1

OBJECTIVE              To determine whether the Department of Energy's
                       (Department) quality assurance process over data reported by
                       all recipients was effective, we examined information reported
                       by recipients of Departmental funding as of September 30,
                       2009. We also sought to determine whether the Department's
                       prime contractors were prepared to track and report on
                       Recovery Act activities.

SCOPE                  The audit was performed between September 2009 and March
                       2010 at Department Headquarters in Washington, D.C., the
                       Oak Ridge Office, Oak Ridge National Laboratory, East
                       Tennessee Technology Park, and Y-12 National Security
                       Complex, Oak Ridge, Tennessee; the Richland Operations
                       Office, Hanford Site; and, Pacific Northwest National
                       Laboratory, Richland, Washington.

METHODOLOGY            To accomplish the audit objective, we:

                                Obtained and reviewed the Department's policy and
                                procedures for reviewing quarterly recipient of the
                                American Recovery and Reinvestment Act of 2009
                                (Recovery Act) data pursuant to Office of
                                Management and Budget Memorandum 09-21;

                                Obtained the Department's quality assurance process
                                results and reviewed the data for any material
                                omissions, significant errors, and reporting anomalies;

                                Compared the quality assurance process results to the
                                recipients' reported data from Recovery.gov for any
                                reporting anomalies that were not identified by the
                                process and discussed the anomalies with cognizant
                                site officials;

                                Determined what changes prime contractors made to
                                their information systems to enable Recovery Act
                                funds and number of jobs created/retained to be
                                appropriately tracked and reported;

                                Determined the prime contractors' system controls in
                                place to prohibit co-mingling of Recovery Act and
                                non-Recovery Act funds; and,

                                Determined the prime contractors' processes for
                                reporting Recovery Act information to
                                FederalReporting.gov

___________________________________________________________________
Page 6                                 Objective, Scope, and Methodology
Appendix 1 (continued)

                       We conducted this performance audit in accordance with
                       generally accepted Government auditing standards. Those
                       standards require that we plan and perform the audit to obtain
                       sufficient, appropriate evidence to provide a reasonable basis
                       for our findings and conclusions based on our audit objectives.
                       We believe the evidence obtained provides a reasonable basis
                       for our findings and conclusions based on our audit objectives.
                       The audit included tests of internal controls and compliance
                       with laws and regulations to the extent necessary to satisfy the
                       audit objective. Because our review was limited, it would not
                       necessarily have disclosed all internal control deficiencies that
                       may have existed at the time of our audit. We also assessed
                       performance measures in accordance with the Government
                       Performance and Results Act of 1993 relevant to the Recovery
                       Act. We found that none of the seven sites reviewed had
                       developed measures directly related to our audit. We
                       addressed the reliability of computer-processed data which we
                       considered to be critical to satisfying our audit objective.

                       Management waived an exit conference.




___________________________________________________________________
Page 7                                 Objective, Scope, and Methodology
Appendix 2

                                    PRIOR REPORTS


  The Department of Energy's Quality Assurance Process for Prime Recipients' Reporting
  for the American Recovery and Reinvestment Act of 2009 (OAS-RA-10-01, October
  2009). This report identified that the Department of Energy (Department) had developed
  a quality assurance process to facilitate the quarterly reviews of recipient data. The
  process included procedures to compare existing information from the Department's
  financial information systems with that reported to FederalReporting.gov by recipients.
  In addition, plans were in place to notify recipients of anomalies or errors exposed by the
  quality assurance process. While the Department has made a good deal of progress in
  this area, the report did identify several issues which could, if not addressed, impact the
  effectiveness of the quality assurance process.

  Department of Energy's Efforts to Meet Accountability and Performance Reporting
  Objectives of the American Recovery and Reinvestment Act (OAS-RA-09-04, September
  2009). This audit revealed that the Department's efforts to develop, refine, and apply
  control structure needed to ensure, timely, and reliable reporting to be both proactive and
  positive. However, there were certain issues relating to American Recovery and
  Reinvestment Act of 2009 (Recovery Act) performance management, accounting and
  reporting accuracy, and timeliness that needed to be addressed and resolved. In
  particular, at the time of the review, no determination was made whether or not prime and
  sub recipients could properly segregate and report both accounting and performance
  measures.

  The American Recovery and Reinvestment Act at the Department of Energy (OAS-RA-
  09-01, March 2009). This report informed the Department leadership of the risks that it
  should consider as stimulus activities progress. Specifically, the report identified specific
  risks discovered during past reviews and investigations in areas such as fund
  accountability and reporting, grant and cooperative agreement execution, contract
  management, and the management of loan guarantee efforts. The report also provides the
  Department with "lessons learned" and suggests approaches for reducing the risks
  associated with the Recovery Act funding. Suggested actions are included that should be
  considered during Recovery Act planning and program execution to help reduce the
  likelihood that historical problems will recur. The report also describes the Department's
  initial efforts to identify risks and to develop strategies to help ensure that the Recovery
  Act goals and objectives are satisfied.




___________________________________________________________________
Page 8                                                   Prior Reports
                                                March 26, 2010
MEMORANDUM FOR:               Rickey R. Hass
                              Deputy Inspector General
                                 For Audit Service

FROM                          STEVE ISAKOWIITZ (NO SIGNATURE 508 VERSION)
                              CHIEF FINANCIAL OFFICER

SUBJECT:                      Comments to Draft Report – “Accounting and Reporting for the American
                              Recovery and Reinvestment Act by the Department of Energy’s Funding
                              Recipients”

Thank you for the opportunity to review your draft report on Recovery Act recipient reporting. As noted by
your report, the quality assurance program developed by the Office of the Chief Financial Officer for the period
reviewed by the draft report (third quarter 2009) was a success. Subsequent to the period reviewed by the
Office of Inspector General, recipient reporting has improved substantially. For the fourth quarter 2009
reporting period, a greater percentage of the Department's recipients reported and a higher percentage of their
reports were reviewed by the Department.

The Office of the Chief Financial Officer is committed to continuously improving the reporting process for
Recovery Act recipients and has initiated several efforts to further enhance the reporting process. These
initiatives include:
     • Training to over 300 agency reviewers on the Department’s quality assurance process at five DOE sites;
     • Multiple webinars on the quality assurance process;
     • Outreach campaign to agency reviewers to encourage them to ensure timely recipient reporting and error
         correction; and
     • Continued enhancements to the processes for identifying questionable data reporting.

The Department concurs with both IG recommendations, which have already been implemented. Please see the
attached for detailed responses to the draft report’s recommendations.




                                                                                                               1
                          Response to Inspector General Draft Report
A10RA049- Draft Report “Accounting and Reporting for the American Recovery and Reinvestment Act
                  (ARRA) by the Department of Energy’s Funding Recipients”

To help enhance the effectiveness of the Recovery Act data quality assurance process, we recommend that the
Chief Financial Officer work with the program officials to:

Recommendation 1
Adjust the quality assurance process, as necessary, to include adding comparisons of other data elements to
increase the likelihood that material omissions and significant reporting errors are detected; and,

Management Decision
Concur. The Office of the Chief Financial Officer has already implemented this recommendation. The quality
assurance process is continuously adjusted to account for changes in reporting guidance and, more importantly,
to improve the Department’s quality assurance review of recipient data. Recent enhancements include
additional comparisons for payments, final reports, and award types and updated logic used for assessing the
award amount, thus increasing the likelihood that material omissions and significant reporting errors are
detected. The Office of the CFO will continue to adjust its quality assurance process as necessary to address
any issues identified in future reporting periods.

Estimated Completion Date: Completed.

Recommendation 2
Ensure that all officials with oversight responsibility for Recovery Act recipient reporting are adequately
trained.

Management Decision
Concur. The Office of the CFO has completed numerous training initiatives to ensure that all officials with
oversight responsibility have the opportunity to be trained on Recovery Act recipient reporting and oversight
responsibilities. These initiatives include:
    • Training to over 300 agency reviewers on the Department’s quality assurance process at five DOE sites;
    • Multiple webinars on the quality assurance process;
    • Outreach campaign to agency reviewers to encourage them to ensure timely recipient reporting and error
       correction; and

Additionally, the Office of the CFO has developed draft guidance on how the Department will review recipient
data submitted to OMB for the reporting period covering the first quarter of 2010. The broad concepts of the
document have been shared with the Field Offices and some select individuals at Headquarters. When the
OMB guidance is finalized the Office of the CFO will provide agency reviewers 24/7 access to a recorded
webinar they can review at their convenience.

Estimated Completion Date: Completed.




                                                                                                               2
                                                          IG Report No. OAS-RA-10-06

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
